<html>
<title> - H.R. 135: TWENTY-FIRST CENTURY WATER COMMISSION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      H.R. 135: TWENTY-FIRST CENTURY WATER COMMISSION ACT OF 2007

=======================================================================

                                (110-87)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                   U.S. GOVERNMENT PRINTING OFFICE
38-865 PDF                  WASHINGTON : 2007
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
?

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             RICHARD H. BAKER, Louisiana
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California, Vice     JOHN R. `RANDY' KUHL, Jr., New 
Chair                                York
ELEANOR HOLMES NORTON, District of   CHARLES W. BOUSTANY, Jr., 
Columbia                             Louisiana
BOB FILNER, California               JEAN SCHMIDT, Ohio
ELLEN O. TAUSCHER, California        CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    THELMA D. DRAKE, Virginia
GRACE F. NAPOLITANO, California      JOHN L. MICA, Florida
MICHAEL A ARCURI, New York             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Conrad, David, Senior Water Resources Specialist, National 
  Wildlife Federation............................................     9
Georgakakos, Ph.D., Aris P., Civil and Environmental Engineering, 
  Georgia Institute of Technology................................     9
Grumbles, Hon. Benjamin H., Assistant Administrator for the 
  Office of Water, United States Environmental Protection Agency.     9
Linder, Hon. John, a Representative in Congress from the State of 
  Georgia........................................................     7
Lynch, Robert S., Robert S. Lynch and Associates.................     9
Mullican, III, William F., Deputy Executive Administrator for 
  Planning, Texas Water Development Board........................     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Baker, Hon. Richard H., of Louisiana.............................    26
Carnahan, Hon. Russ, of Missouri.................................    30
Costello, Hon. Jerry F., of Illinois.............................    31
Johnson, Hon. Eddie Bernice, of Texas............................    33
Linder, Hon. John, of Georgia....................................    36
Matsui, Hon. Doris O., of California.............................    40
Mitchell, Hon. Harry E., of Arizona..............................    42

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Conrad, David R..................................................    45
Georgakakos, Aris Peter..........................................    49
Grumbles, Hon. Benjamin H........................................    54
Lynch, Robert S..................................................    67
Mullican, III, William F.........................................    71

                        ADDITIONS TO THE RECORD

City of Atlanta, Georgia, Hon. Shirley Franklin, Mayor, written 
  statement......................................................    80
National Water Resources Association, Thomas F. Donnelly, 
  Executive Vice President, written statement....................    85
[GRAPHIC] [TIFF OMITTED] T8865.001

[GRAPHIC] [TIFF OMITTED] T8865.002

[GRAPHIC] [TIFF OMITTED] T8865.003



      HEARING ON TWENTY-FIRST CENTURY WATER COMMISSION ACT OF 2007

                              ----------                              


                       Thursday, November 8, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. Good morning. Today's hearing comes during a 
historic week where the House of Representatives came together 
in a bipartisan fashion and soundly overturned the President's 
veto of the Water Resources Development Act of 2007, the WRDA 
Bill, and I especially want to applaud all of my colleagues 
from the Committee, both Democrat and Republican alike who 
unanimously voted for overriding the veto.
    WRDA authorizes vitally important local projects for a wide 
array of water resources needs including water supply, flood 
control, navigation and environmental restoration. WRDA 
recognizes the vital importance of taking a watershed approach 
to water resource needs. This bill includes dozens of projects 
to provide for watershed management and water supply needs in 
communities across the Country.
    Provisions were also included to reinvigorate broader 
watershed planning authority including a federally-funded 
assessment of water resources needs for the river basins and 
watersheds of the Southeastern United States and a region-wide 
study to review drought conditions in the Southeastern U.S.A. 
These region-wide assessments are especially critical to the 
Southeastern U.S. including the States of Georgia, Alabama and 
Florida which are experiencing the ever increasing challenge of 
balancing water needs during a record drought.
    Earlier this year, the Committee received testimony from 
experts that highlighted the need for a comprehensive watershed 
approach to water resource planning, one that is not limited to 
just water supply needs but takes a comprehensive view of all 
the water resource activities in a watershed including local, 
State and Federal roles and activities in water supply, flood 
control and environmental restoration.
    The experts also advised taking into account the impact of 
global climate change on water resource capacity and future 
needs.
    As a result of these hearings, this past July, the 
Committee approved, by a voice vote, legislation to create a 
comprehensive review of national water policies also called the 
Twenty-First Century Water Commission. This provision, which 
was included in the Transportation Energy Security and Climate 
Change Mitigation Act of 2007, establishes a commission to 
provide expert scientific guidance on future water supply and 
demand projections, climate change impacts to our Nation's 
flood risk and water demand and associated climate change 
impacts on water quality.
    This commission would study current Federal, State and 
local water resources management programs and activities and 
ensure that the Nation is adequately prepare to meet the water 
supply, water quality and water resources demands of the next 
50 years. This provision was incorporated into H.R. 3221, New 
Direction for Energy Independence, National Security and 
Consumer Protection Act which was approved by the House, August 
4th, 2007.
    My home State of Texas has had long experience in water 
resource planning. Following the drought of the 1950s, Texas 
began its initial efforts in statewide water planning.
    In 1957, the State Legislature created the Texas Water 
Development Board. The board has prepared and adopted eight 
State water plans. Early efforts focused mostly on describing 
the State's water resources and then evolved into a focus on 
developing plans addressing water supply, conservation and 
environmental issues.
    But, drought in 1997 was a watershed event for Texas. This 
devastating drought caused nearly $5 billion in losses for 
agriculture and related industries and caused widespread loss 
and anxiety over water supply shortages.
    As a result of this statewide event, Texas totally changed 
its approach to water planning and moved from a very 
centralized approach to a decentralized process that put 
primary responsibility for water planning at the regional and 
local governments' level. The new process greatly increased 
public participation and implemented a bottom-up local and 
regional planning process. This new effort emphasized 
conservation and increases in environmental protection.
    Texas has just released its 2007 water plan which is one of 
the most comprehensive State water plans produced, and I am 
pleased that we have William Mullican, Deputy Executive 
Administrator for Planning of the Texas Water Development Board 
here today to tell us more about this plan.
    Mr. Baker.
    Mr. Baker. Thank you, Madam Chair.
    I certainly appreciate your willingness to hold this 
hearing, and I look forward to hearing from our colleagues from 
Georgia and those with concerns around the Great Lakes this 
morning to learn their perspectives on this obviously critical 
circumstance. I also look forward to the second panel of 
experts who I hope will have what is not apparent to me, the 
appropriate remedies for us to adopt.
    It is unfortunate that we really have to have a hearing 
this morning on the Water Commission Act as the past two 
Congresses have passed the measure. Had it made it through, we 
perhaps would have had an operational plan in place to more 
adequately prepare for these circumstances and for all involved 
to know what appropriate steps to take. Not to speak ill of my 
colleagues on the other side of the Capitol, but a little 
production would be helpful.
    Ensuring that we all have access to clean and sustainable 
quantities of water is an enormous responsibility. It is also 
very evident that the demand for clean water is expanding 
rather dramatically.
    Even though States like Georgia which would ordinarily not 
be viewed as a likely location for drought, it can happen and 
public water supplies are dangerously low. It goes beyond the 
mere convenience of watering one's lawn or washing your car on 
a Saturday afternoon. It goes to the very quality of basic 
life.
    I am hopeful that there are remedies within our reach, but 
I think it is tragic we find ourselves in this circumstance. We 
all knew this day would come. We just weren't sure when. Now we 
know. It is here and, perhaps, the remedies that can be 
attained will take considerable time, perhaps more time than 
citizens have available to them.
    I just want to again express appreciation to the Committee 
and to my colleagues in the Congress for their generous and 
repetitive response to those in need in the State of Louisiana 
in our terrible time and absolutely commit the Louisiana 
delegation to be responsive to any region of the Country's 
needs, knowing that you were there when we needed you, and we 
certainly want to be helpful to you in bringing this to a 
speedy conclusion.
    Madam Chair, I look forward to continuing work with you. 
Now having WRDA out and soon to be overridden in the Senate in 
about an hour, it gives us time to turn our attention to 
essential matters. I look forward to working with you.
    I yield back.
    Ms. Johnson. Thank you very much.
    Just a question, do you think anybody who didn't vote for 
the bill won anything out of it?
    Mr. Baker. Oh, no, no.
    Ms. Johnson. The Chair recognizes Mr. Salazar.
    Mr. Salazar. Thank you, Madam Chair.
    Today, I believe that Congress has to examine the 
alternatives for funding and updating our aging infrastructure 
when it comes to water, but I would like to give today a 
perspective from the western States of America. As you know, we 
have been suffering a drought for many, many years, and we deal 
a lot with agricultural water. We deal a lot with urban water 
needs as well.
    Many of the Western water users are ag users and, without 
the financial resources to fund these necessary investments, 
they can't be made. While water allocation is a State water 
rights issues, much of the arid West's ag water infrastructure 
is from Federal resources. I believe that as we recently have 
seen in the Southwest, that drought, without Federal 
involvement, would leave us in dire straits.
    I think consistent with reliable water-related data is a 
prerequisite for good water planning, and I certainly respect 
exactly what you are doing, Mr. Linder.
    I believe that Congress has routinely reduced funding for 
the U.S. Geological Survey stream gauging program. Already a 
cost share program, the Federal share has now dropped below 50-
50 partnership. I think that as we look forward to the 21st 
Century, our commitment to our water infrastructure needs has 
to include at least a 50-50 partnership.
    And so, with that, Madam Chair, I would like to turn my 
statement in for the record, but I would also urge you to look 
at the severe droughts that we are having not only in the 
Southeast but in the Southwest.
    I certainly want to thank you for your commitment to 
addressing the water infrastructure needs of this Country. 
Thank you.
    Ms. Johnson. Thank you very much, Mr. Salazar.
    The Chair now recognizes Mrs. Miller.
    Mrs. Miller. Thank you very much, Madam Chairman. I 
certainly appreciate your calling this hearing.
    I also voted for the override for WRDA and am pleased that 
we did work in a very bipartisan way on that. That is a 
critical piece of legislation, very, very important for the 
entire Nation. One of the reasons I was in support of it and 
voted for the override was because of the authorization for a 
number of projects that were critical to the Great Lakes.
    I have a statement I would like to enter into the record, 
without objection, but briefly I would like to say this: I 
appreciate Mr. Linder being here. I have a high regard for him. 
I must tell you I have huge consternation about his bill that 
he will be testifying about today.
    When we voted on this in the last Congress, I was one of 22 
Members who voted against that, and let me tell you why. In 
full transparency, my principal advocacy, coming from the Great 
Lakes State of Michigan and that basin, is the protection of 
our magnificent Great Lakes which is 1/5 or 20 percent of our 
fresh water supply on the entire planet.
    As other parts of the Nation are having droughts, which we 
have great empathy for and sympathy for what is happening 
there, I don't want to be looking at a national approach about 
anything that might talk about diversion of the Great Lakes to 
any other part of the Nation. I think that this bill could very 
well, in my mind, be looked at as a way of socialism almost for 
a national water policy, a national approach to water policy 
that needs to be looked at on a regional basis.
    I don't think I am being too alarmist about this, and I 
would make just one example here. Recently, about three weeks 
ago, Bill Richardson, who is a Presidential candidate, the 
Governor of New Mexico, this is what he said. He said, I want a 
national water policy. We need a dialogue between States to 
deal with issues like water conservation, water reuse 
technology, water delivery and water production.
    Okay, fair enough until he said, States like Wisconsin are 
awash in water. You can imagine the red flags that sends up to 
a State like Michigan and others around the Great Lakes Basin 
at a time when we are having historic low water levels in the 
Great Lakes.
    As we have lost population and jobs to other parts of the 
Nation, people want to build subdivisions in deserts or 
whatever they are doing, God bless them, but do not look to the 
Great Lakes to solve the Nation's water problem.
    I look forward to the testimony this morning. Thank you.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mr. Mitchell.
    Mr. Mitchell. Thank you, Madam Chairman, and thanks for 
holding today's hearing.
    As you know, we are long overdue for a comprehensive review 
of water policy, Federal water policy, and we haven't had one 
since 1973. This is particularly distressing to a State like 
Arizona whose population has more than tripled since then and 
whose habitability is so closely tied to the availability of a 
safe, reliable water resource.
    Currently, Arizona is experiencing its 11th, and some 
people say 13th, year of drought. The Colorado River system as 
a whole is now in its 8th year of drought, and I believe it is 
past time for the Federal Government to study these issues.
    I want to extend a special thank you and welcome to Robert 
Lynch who will be testifying before us today on the second 
panel. Bob knows these issues as well as anyone. He has worked 
on them for decades both in Washington and in Phoenix, and we 
are very lucky to have him here with us today.
    I look forward to today's testimony. Thank you, and I yield 
back.
    Ms. Johnson. Thank you, Mr. Mitchell.
    Anyone else?
    Mr. Ehlers. Thank you very much, Madam Chair, and thank you 
for calling this hearing.
    Water is the essence of life, and I am sure all of you know 
it is important because you like to drink it and you need to 
drink it, but as a matter of fact the majority of our bodies is 
water. By far the greatest concentration of chemicals in our 
bodies is H2O, and that illustrates the extreme importance of 
water not just for us but also for plant life which also is 
largely water. That is why water becomes so extremely important 
and agriculture, forestry and so forth.
    I would certainly like to second the comments of my 
colleague from Michigan, Congresswoman Miller. I would like to 
strengthen them, but the only way to make them any stronger 
than she has would be to add profanity, which I don't do, but 
this is a very serious matter.
    The feelings in the Great Lakes States are so strong that 
if anyone tried to divert water, I suspect we would call up the 
militia and come to arms. We feel that strongly about it.
    Our very existence depends on having that water. We have a 
major fishery, an $18 billion a year fishery in the Great 
Lakes. Some 40 million people get their drinking water out of 
the Great Lakes.
    Frankly, the Great Lakes are going down as well. Lake 
Michigan has dropped almost two feet in the past couple of 
years. So the drought or whatever other conditions are causing 
this are affecting us as well.
    So water is crucial. I think it is very important to have 
this hearing, and it is fine to get a national water policy. 
But I might point out that Congress has already passed 
legislation signed by the President, giving the governors of 
the Great Lakes States the authority of any diversion of water 
from the Great Lakes, and you can be assured that they would 
never allow diversion outside of the water basin. That is 
totally understood.
    With that, I will yield back. Thank you.
    Ms. Johnson. Thank you very much.
    The Chair recognizes Ms. Hirono.
    Ms. Hirono. Thank you, Madam Chair.
    Water is one of the naturally limiting factors that impacts 
the growth and development and the economy of any State. The 
State of Hawaii has a statewide water commission which is 
charged with deciding who gets what water. So, even within the 
State, it is a very, very difficult process.
    I have no problems with the Federal Government coming in 
and acknowledging the importance of water resources throughout 
the Country, but at the same time I would like to make sure 
that the State of Hawaii, which is not even contiguous to all 
of the other States, if we are going to proceed in this way, 
that we acknowledge the unique circumstances of Hawaii in 
whatever we do.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Any other opening statements?
    The Chair recognizes Mr. McNerney.
    Mr. McNerney. Thank you, Madam Chair, and I want to 
acknowledge your leadership on the Water Bill. That is very 
important to California and to the Nation. So I was proud to be 
a part of that, and I look forward to working in those issues.
    I want to follow up on Mr. Baker's remark that we all knew 
this day was coming. Well, it is here now. What we are seeing 
in Georgia, I think we are going to be seeing elsewhere across 
the Country with increasing frequency.
    In the West, we are used to droughts. We see those 
periodically. The demand for water is only going to continue to 
increase.
    We are seeing severe problems with the ecology of the San 
Joaquin Delta. We are having to shut down pumps that transport 
water to 23 million people in California now to protect marine 
life. So we certainly appreciate the dilemma that the people in 
Michigan are facing with people exporting water from our 
region.
    I think it is our responsibility in this body to plan for 
water supplies that could take up to 10 years or so or more to 
develop. So we have a lot of work to do.
    I am anxious to see this hearing come forward and the 
testimony. Thank you, Mr. Linder, for your testimony and for 
your work. With that, I yield back.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair, for this very 
important hearing and I welcome our guest, the Honorable Mr. 
Linder.
    We have discussed this issue on the Floor in regard to the 
necessity of being able to establish a commission that is going 
to take a wide and deep look at the status of water. We have 
not had to face it. I think it is very apropos at this time 
that we begin. We should have started 10 years ago, but then 
that is hindsight.
    I strongly support your bill and look forward to working 
with you on being able to identify those areas that we know 
from our experience in the West, how we have either been able 
to deal with it or things that we need to begin to get the 
Federal Government involved in.
    It is also, Madam Chair, very important that our agencies 
that deal with water work in tandem with Congress to be able to 
work out the solutions specifically dealing with contaminated 
areas, with being to address the filtering of water to be able 
to make it potable and not carry anything that has not been 
able to be filtered, and I am talking about drugs and things 
that get into the water, and ensure that there is sufficient 
water for the continued growth of the communities that we all 
serve.
    The climate change has been diminishing our supply. We have 
heard how we can expect 100 years of climate change, that we 
have had 100 years of moist climate and now we are going to be 
having dryer climate. All of those are important issues so that 
we can take a look at not only our above-ground but our 
underground resources and how do we clean what we have so that 
we are able to face the challenges of the future.
    We have no new water sources, so we must figure out a way 
of being able to identify where we can capture water and where 
we have contaminated aquifers that we can clean and be able to 
put to production.
    The Federal Government has over 10 different water supply 
programs to recycle, reuse, desalinate, clean up and conserve 
our water resource within 4 Federal agencies, and we should 
bring those Federal agencies together to work out the solutions 
that we can all be supportive of. Your commission would create 
a national strategy to address the water shortages and 
recommend the improvements.
    I am hoping that as we move along that it is done 
expeditiously rather than in the next 10 years. I think we need 
to face the fact that we need strong and fast action.
    I thank you Congressman for bringing this to us and for 
authoring this important legislation.
    Madam Chair, I yield back the balance of my time.
    Ms. Johnson. Thank you very much.
    We will now go to our first witness. We are pleased to have 
Congressman John Linder, sponsor of H.R. 135, the Twenty-First 
Century Water Commission Act of 2007, and we are pleased that 
you were able to make it this morning.
    Your full statement will be placed in the record. We ask 
that you limit your testimony to a five minute oral summary 
from your written statement.
    Congressman Linder, thank you.

  TESTIMONY OF THE HONORABLE JOHN LINDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Linder. Thank you, Madam Chair, Mr. Baker and Members 
of the Committee. I am pleased to be here to talk about the 
Twenty-First Century Water Commission Act.
    But, first, I want to hasten to assure my friends from 
Michigan that the only thing worse than a national water policy 
is a global water policy. This is not to establish a national 
policy for using water but to get people around the same table, 
to bring all the knowledge we have about water to the same 
place to advise the Congress and the President.
    For example, California has the best conservation record in 
the Country. The rest of the States need to know how they do 
it. California has one other problem, though. Fifty percent of 
the water that falls on California goes to the sea, unused even 
once. They have to start using that water and reusing that 
water.
    Tampa is doing a great job in desalinization. They are 
bringing the cost down to make it almost commercially 
reasonable. They have to improve that and share that technology 
with the other States, but the most important thing is there 
are ideas all across this Country and across the world that are 
making their way into the discussion. We have to get at the 
same table.
    It is my fondest hope that some obscure expert from some 
obscure part of the world will bring some knowledge to us that 
we had no idea existed, so we can improve our storage, both 
above ground and underground, our conservation and, most 
important, repair our leaky pipes. Philadelphia loses 85 
million gallons of water a day through leaky pipes.
    We need to increase the revolving loan fund in the Clean 
Water Act, so that more States can fix their problems. We are 
fixing in Atlanta, a $3 billion problem with our sewage 
treatment. We ought to be able to borrow that money at low 
interest rates from the Federal Government under the Clean 
Water Act.
    This is not to establish any new policy at the Federal 
level. This is not to establish any new Federal policy to tell 
people at the Great Lakes what to do with their water but to 
tell us all how to store more of it, how to use more of it. We 
are going to have to have Federal help with the borrowing of 
the money from the Clean Water Act at low interest rates, the 
revolving loan fund.
    This was started after looking at what happened. How did we 
get our interstate highway system established? It was started 
in 1938 by FDR with a commission to bring all the knowledge and 
engineers to the same table. In three years, they came up with 
a proposal.
    That proposal took 70 years to enact and get completed, but 
it got completed and the individual States controlled what went 
on in their States with their development. That is exactly how 
I see this happening.
    Bob Lynch from Arizona, a water expert in the West, will 
testify after me. He will note that in 2003, when he testified 
for the first time, he was just as concerned as the folks in 
Michigan are about a national water policy. We hastened to 
assure him and others at that meeting, that that was not our 
intention.
    Our intention is just to say what do we know about water, 
what do we know works across the Country, bring it to the 
President and the Congress, so the Congress can look at it and 
decide how to help improve our storage.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much, Mr. Linder. I appreciate 
your cooperation and your valuable participation this morning. 
We will not pose any questions to you. We will talk about you 
when you are gone.
    Mr. Linder. Thank you very much.
    Ms. Johnson. The second panel of witnesses consists of the 
Honorable Benjamin Grumbles--I don't think he misses one of our 
Committee meetings--Assistant Administrator for the Office of 
Water, the U.S. Environmental Protection Agency.
    We have Mr. William Mullican, Deputy Executive 
Administrator for Planning of the Texas Water Development 
Board; Mr. David Conrad, Senior Water Resources Specialist, 
National Wildlife Federation; Mr. Robert Lynch from Robert 
Lynch and Associates; Mr. Aris Georgakakos, Professor of the 
Georgia Institute of Technology.
    As I noted to the first panel, your full statements can be 
placed in the record, and we ask that you try to limit your 
testimony to about five minutes as a courtesy to other 
witnesses. Again, we will proceed in the order in which the 
witnesses are listed.
    Mr. Grumbles, you may proceed.

  TESTIMONY OF THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
     ADMINISTRATOR FOR THE OFFICE OF WATER, UNITED STATES 
  ENVIRONMENTAL PROTECTION AGENCY; WILLIAM F. MULLICAN, III, 
   DEPUTY EXECUTIVE ADMINISTRATOR FOR PLANNING, TEXAS WATER 
    DEVELOPMENT BOARD; DAVID CONRAD, SENIOR WATER RESOURCES 
  SPECIALIST, NATIONAL WILDLIFE FEDERATION; ROBERT S. LYNCH, 
  ROBERT S. LYNCH AND ASSOCIATES; ARIS P. GEORGAKAKOS, PH.D., 
   CIVIL AND ENVIRONMENTAL ENGINEERING, GEORGIA INSTITUTE OF 
                           TECHNOLOGY

    Mr. Grumbles. Thank you, Madam Chair.
    I am Ben Grumbles, Assistant Administrator for Water, U.S. 
EPA, and it is an honor to appear before the Committee to talk 
about sustainable water policy and improving the coordination 
and integration at a national level and also a chance for EPA 
to discuss the three Rs of water sustainability: reducing 
waste, reusing water and restoring watersheds.
    EPA, as you know, has over the last five years been 
implementing its four pillars of sustainability for 
infrastructure: better asset management, full cost pricing, 
water efficiency and the fourth pillar of a watershed approach.
    But, today, as all of us are focusing in on the importance 
of water resource management, including quantity issues, it is 
important for us to articulate some enduring policy approaches, 
some guiding principles, and that is where the three Rs come 
into play.
    Reducing waste and inefficiency is the first. EPA is not a 
regulatory entity when it comes to water quantity or water 
allocation. However, we, like everyone else, recognize the 
importance, the inextricable connection between quantity and 
quality, and so we are using our non-regulatory authorities to 
encourage and to provide technology and innovation for water 
efficiency, to cut the water waste.
    I have spoken before to the Committee about the WaterSense 
program. We feel it is an extremely important part and it 
certainly would be a part of discussion, I am sure, with a 
water commission for the 21st Century to instill an ethic of 
efficiency and conservation.
    As Congressman Linder noted, there is a tremendous amount 
of water waste, and the WaterSense program is based on the 
principle of there doesn't need to be sacrifice. Through 
technology and providing information to consumers and utilities 
across the Country and manufacturers, we can see water 
efficient products and appliances where families save money and 
water and energy as well. So the WaterSense program is a very 
important part of reducing waste and inefficiency.
    The other R is reuse, reclamation and reuse of water, 
recycling water. I know this Committee is aware of that when 
you held hearings on water is the oil of the 21st Century. One 
of the solutions is technology. So to view water as a true 
resource and to reclaim it, the continued press for innovation 
on desalination and wastewater reclamation, indirect reuse, 
potable reuse is an important one.
    It also includes stormwater. One of EPA's visions is to 
work with communities to view stormwater not as a waste product 
but as a water resource.
    The Administrator has kicked off a campaign, a movement, a 
green infrastructure movement which is supported by grassroots 
and national organizations across the Country to view 
stormwater as a true resource and use rain gardens and wetlands 
and greening watersheds, retaining water to reuse it at a later 
point in time. So that is a very important component of water 
resource sustainability.
    The Western Governors Association, which is focusing in on 
water sustainability, is also very much aware of the need to 
reuse and reclaim. We see communities throughout the Country, 
desal plants, as the Congressman mentioned, in Tampa Bay or El 
Paso, a desalination plant, are very important ones.
    The third R is restoring, restoring watersheds. We all live 
downstream. So if steps are taken upstream to reduce the 
pollution through wetlands and buffer strips and through 
pollution prevention practices, that can reduce the treatment 
costs downstream and help provide for a healthier watershed.
    Those are the three Rs.
    What I would like to articulate, Congresswoman, is that a 
very important part of all of this, which is one of our pillars 
of sustainability, is full cost pricing. A key to making true 
progress toward sustainability is for citizens, governments, 
communities to pay the true value, to recognize the true value 
of water and water infrastructure, so that we all appropriately 
invest in those assets.
    The last thing I would like to say is with respect to H.R. 
135, I commend Congressman Linder for his leadership on this 
issue. While the Administration doesn't have an official 
position on the bill at this time, we recognize there are some 
very, very important and timely components that are part of 
this legislation and the discussion.
    I, myself, do not read the bill as providing some type of 
mandate or a hint towards looking at interstate diversions or 
threatening other water bodies or about water grabs, but I do 
see value in having discussions that emphasize the importance 
of State and local rights when it comes to water quantity and 
focusing in on private sector and entrepreneurial solutions and 
better integration among the Federal agency programs.
    Madam Chair, I appreciate the opportunity to be part of 
this important panel and the discussion, and I look forward to 
answering questions you or your colleagues may have.
    Ms. Johnson. Thank you very much.
    Mr. Mullican.
    Mr. Mullican. Thank you, Madam Chair. Thank you, Members of 
the Committee.
    For the record, my name is Bill Mullican with the Texas 
Water Development Board. I would be remiss this morning, Madam 
Chair, without recognizing on behalf of the citizens of the 
State of Texas, your own work in the development and passage of 
the Water Bill. In Texas, this has become of paramount 
importance to us. So we just want to thank you for all your 
efforts in that regard.
    I also thank you for your introductory remarks about the 
regional water planning process in Texas, and that is really 
what I want to talk about primarily this morning. In 1997, the 
State changed the way we do water planning.
    We had been doing it for 40 years, but the reality of what 
we learned is that if there is this top-down planning process 
put in place, then the reality of it is the local and regional 
project sponsors will not have any buy-in or support to that 
planning process. Therefore, the chances of implementation are 
almost zero.
    As such, we now have a process that is based on local and 
regional participation in that planning process. Already, just 
after 10 years of being engaged in this effort, we have 
produced two State water plans that were solely based on the 
recommendations of the local and regional water providers and 
11 other interest groups that are required to be part of that 
planning process through a consensus-building process, and we 
are already seeing remarkable levels of implementation of that 
process.
    Just in brief, the results of the 2007 State water plan are 
that Texas will more than double its population over the next 
50 years from about 23 million to over 46 million people by 
2060.
    As part of that planning process, you have to understand 
that this is not just a plan based on regional plans, but in 
Texas it is based on about 2,600 individual local plans. The 
decisions and recommendations are developed by those local and 
regional entities that participate in the planning process.
    Of those 2,600 entities, those local plans are then 
integrated into the 16 regional water plans which are then 
integrated into a State water plan.
    The results of the most current planning process are that, 
and they are rather sobering results, for the very first time 
our demands for water supply in Texas during drought conditions 
will be increasing from over 18 million acre feet today to over 
almost 22 million acre feet by 2060. This is compared to a 
currently available water supply of about 17.9 million acre 
feet today decreasing to about 14.5 million acre feet by 2060.
    As such, we already have right now today, during drought 
conditions, about a 3.3 million acre feet per year deficit of 
water supply. If we do nothing in Texas, we project that number 
will increase to almost 9 million acre feet. In 2060, if we do 
nothing, we project that 85 percent of the people in the State 
of Texas will not have adequate water supply during drought 
conditions.
    Due to the enormity of those conclusions, the Texas 
Legislature in its most recent session not only enacted several 
of the policy recommendations that came out of that planning 
process including the designation of 19 unique reservoir sites, 
but they also appropriated over $760 million to begin the 
process over the next two years of building the water supply 
projects that are going to be needed to meet our future water 
supply needs.
    With that success, I would just point out a few things 
about the bill that I think are appropriate to H.R. 135.
    First and foremost, Texas has a long experience in water 
planning. When you look at the kind of success that we are 
having in our water supply planning today and you look at the 
diversity that occurs within the State of Texas, where in far 
west Texas our precipitation average is about six inches a year 
and in far east Texas our precipitation averages about 60 
inches a year, there is an order of magnitude difference in the 
amount of precipitation that Texas receives from west to east.
    When you look at that kind of diversity, it seems to me it 
would be appropriate to make a comparison on a national scale 
to what we are facing today.
    As a result of that, I think it is incumbent upon you to 
consider ensuring in this planning process, in this evaluation 
process that it is truly a grassroots effort, that the local 
and regional water providers, the tribes and the States are the 
people that are driving this process and making the 
recommendations to Congress on what needs to happen from a 
national water policy perspective.
    Second, I work with a lot of States in the United States on 
their water planning process as they try to move towards 
implementation of the Texas model. The reality of it is the 
data, the basic data needed for this kind of planning simply 
does not exist in a vast majority of the States.
    Third and in conclusion, the reality of it is there is a $9 
million authorization in this bill. Take it from someone who 
has been responsible for doing the budgets for the State of 
Texas over the last 10 years for this process, $9 million not 
only is totally inadequate to do this job, but the reality of 
it is it sends a message for a deliverable or a product that 
will be totally inadequate in the end for this process.
    Thank you very much for the invitation to be before you 
today.
    Ms. Johnson. Thank you very much.
    Mr. David Conrad.
    Mr. Conrad. Good morning, Madam Chairwoman, Ranking Member 
Baker and Members of the Subcommittee.
    My name is David Conrad. I serve as Senior Water Resources 
Specialist for the National Wildlife Federation, the Nation's 
largest conservation education and advocacy organization.
    On behalf of the National Wildlife Federation, I appreciate 
the opportunity to testify on H.R. 135, the Twenty-First 
Century Water Commission Act. We applaud Representative Linder 
for introducing this bill and the now 27 other Members who have 
joined as co-sponsors. This is a vitally important subject for 
legislation, and we believe there is a strong need for a new 
national water commission.
    The issue of water resources is critical to national 
security, economic security, the health and well being of our 
citizens and the wildlife and ecological health of our Nation. 
International tensions over shared water resources are 
increasing as water becomes scarcer and water quality is 
compromised.
    Many of our communities cannot afford necessary upgrades to 
their antiquated sewers, water treatment and delivery systems. 
Wetland resources continue to decline. Our Nation's flood risk 
is increasing. The need for broad-based planning in water 
resources in virtually every area of the Country is 
increasingly clear.
    For these reasons, we would urge an expansion of the scope 
of the commission in the bill from its current narrow focus on 
water supply. We believe a broader mandate that reflects the 
wide variety of water resources issues that we face would 
better serve the Nation's interests.
    Thirty-five years have passed since the last national water 
commission issued a report to Congress and the President on our 
Nation's water resources. The duties of the 1973 commission 
were very broad, and the commission's report provided insights 
on a wide range of issues ranging from the effects of water 
management on the economy, groundwater issues, State and 
Federal water law, interbasin transfers, the emerging concerns 
about the environment, financing, project evaluations and the 
roles and governance of water.
    A lot has changed since the 1973 report, not just 
technologically but also ecologically as well as our 
understanding of water concerns. Today, we are becoming 
increasingly aware of the delicate nature of our aquatic 
ecosystems and how dependent we are on the natural services 
that in the past we have often taken for granted.
    We have learned that interbasin transfers often are 
accompanied by transfers of invasive species, which do 
ecological harm, and increased political tensions due to 
threats to downstream communities' water supplies.
    The reality of global warming can no longer be denied. The 
Intergovernmental Panel on Climate Change has made clear that 
global warming is expected to result in profound effects on 
water cycles, more drought in the West, more flooding and 
droughts in the East, higher sea levels along our coasts. 
Therefore, we urge the Committee to specifically require the 
commission to examine the impacts of global warming on our 
Nation's water resources including flood risks, water quality 
and wetland habitats.
    We would draw the Committee's attention to Section 8207 of 
the House-passed Energy Bill that the Chairwoman mentioned in 
her opening statement. This would authorize a commission 
similar to the commission in H.R. 135.
    The language, in addition to projecting future water 
development and optimizing future water supply, would also 
suggest strategies to use best available climate science and 
projections of future flood and drought risk, promote 
incentives for development of comprehensive water plans, 
support low impact development, encourage the use of and reduce 
biases against nonstructural elements and approaches when 
managing stormwater, address sewage overflow problems and 
support regional watershed planning. We urge the Committee to 
consider adding these important components to the duties of the 
commission.
    We also believe that the commission should definitely 
include members appointed by the Congress as well as the 
President. This would likely give the commission a broader base 
of support for the difficult tasks it would face.
    Finally, we would also like to draw the Committee's 
attention to the Water Resources Council which acted as a 
Federal integrated water resource planning entity from 1965 to 
1983. The Water Resources Council assessed the adequacy of U.S. 
water supplies and produced the principles and guidelines which 
are guidelines for evaluating federally-funded water projects.
    We strongly urge the Committee to consider requiring the 
21st Century Water Commission to evaluate the possibility of 
reviving the Water Resources Council or an entity with a 
similar function.
    Again, Madam Chairwoman, Members of the Subcommittee, we 
applaud your work in holding a hearing on this important 
legislation. We all share a moral responsibility to protect our 
water resources and to protect our children's future. Thank 
you.
    Ms. Johnson. Thank you, Mr. Conrad.
    Mr. Robert Lynch.
    Mr. Lynch. Good morning, Madam Chairman and Members of the 
Committee.
    I am Bob Lynch. I am an attorney in Phoenix, Arizona. I 
really don't want to talk about the bill so much as how we got 
here.
    Before I start, I want to bring greetings to you from Leroy 
Goodson. Leroy is at the NWRA, the National Water Resources 
Association annual meeting, where I was going to be until you 
graciously decided to have this hearing. He also wanted me to 
advise you that he has a candidate for the commission if this 
bill becomes successful.
    I serve, among other things, as the Chair of NWRA Water 
Property Rights Taskforce which is probably the reason I ended 
up getting involved in this, and I actually testified against 
the original version of this bill in 2002. Western States had 
great concerns about the sovereignty of their adjudication and 
water rights management processes which we, I will tell you, 
you already know, guard very jealously.
    I will assure the Members from Michigan that there will be 
World War III before you get raided because if you can get 
raided, so can we, and that will happen over my dead body.
    So this commission has a very important role to play, and 
we hope that you will favorably consider this bill, but we 
started with a dialogue. Once the original bill was introduced 
and some problems were identified, I and others literally 
shopped the idea around the Western United States to water 
professionals, water lawyers, water buffalos, anybody who would 
talk to us, and we got a lot of input. We got a lot of support.
    I am here to tell you that for its third go-round in the 
House of Representatives, this bill is supported by State water 
agencies in the West. It is supported by the Western States 
Water Council, the water arm of the Western Governors 
Association. Everybody who cares about water in the West has 
had a look at this from the get-go, two Congresses ago, and has 
supported it.
    I testified in favor of this bill in 2003 because we had 
that iterative process that made things work and made the 
people in the West, who guard their sovereignty very, very 
carefully, comfortable.
    I call your attention to the provision in the bill on page 
three that says that this task will include respecting the 
primary role of States in adjudicating, administering and 
regulating water rights and water uses. Without that provision, 
I would not be here in support of this bill, and Western water 
interests would not support it. It is that critical.
    So, for those of you from other areas of the Country who 
are concerned about the ability of your States to deal with 
their resources, I am here to tell you we share that concern 
and that has been a primary motivating factor for us to be very 
careful about the language of this bill and to protect the 
rights of the States concerning water.
    I hope that if you decide to move in the direction or in 
some part of the direction of the provision that is in H.R. 
3221, that you give some of us the opportunity to assist you in 
developing some language. I am troubled by some of the verbiage 
in H.R. 3221. I don't know that it was intended to have some of 
the consequences it has, but it appears in certain phraseology 
in some of the paragraphs to be more limiting than I think you 
probably intend it to be.
    So, in closing, I just want to say that we do support this 
bill. It is an important bill.
    I was at the Justice Department in the late 1960s and early 
1970s when the National Water Commission was doing its work and 
litigating these issues. It has been a long time and, as Mr. 
Conrad said, this is an issue that needs focus from this 
Congress.
    Thank you very much for the opportunity to testify.
    Ms. Johnson. Thank you very much.
    Dr. Georgakakos.
    Mr. Georgakakos. Thank you, Madam Chair.
    My name is Aris Georgakakos, and I am Professor of Civil 
and Environmental Engineering at Georgia Tech in Atlanta, 
Georgia. I am also Director of the Georgia Water Resources 
Institute.
    GWRI has been developing and implementing information and 
decision support systems for water resources planning 
management in several world regions including the Southeastern 
U.S., California, Europe, China, East Africa and South America.
    I would like to thank you for the opportunity to testify in 
support of H.R. 135 advocating the establishment of a water 
commission to develop recommendations for a comprehensive water 
strategy. I cannot overemphasize the need for a comprehensive 
strategy as water challenges are becoming increasingly complex, 
threatening our quality of life, compromising the integrity of 
the Nation's environment and ecosystems, and undermining 
economic growth and prosperity.
    In 2001 and 2004, two National Research Council studies 
thoroughly examined the urgency and complexity of water 
resources issues facing the U.S. Among others, the report cited 
that:
    There is abundant evidence that the condition of water 
resources in many parts of the Country and the world is 
deteriorating.
    Our institutions appear to have limited capacity to manage 
the provision of ecosystem services while concurrently 
supplying human needs.
    Demands for water resources to support population and 
economic growth continue to increase although water supplies to 
support this growth are fixed and already fully allocated in 
most areas.
    The frequency and magnitude of damages attributable to 
droughts and floods are increasing and so is our society's 
vulnerability to extreme climate and weather events.
    My own State of Georgia is presently in the second year of 
an unprecedented drought, rapidly depleting our water supplies, 
halting our economy, threatening the sustainability of aquatic 
ecosystems and increasing tensions among water users in our 
State and across the borders with Alabama and Florida.
    While droughts are the result of a natural climate cycle, 
drought stresses and impacts reach a new height with every new 
drought as urban, industrial and agricultural water demands 
rise steadily. Georgia, as well as most U.S. regions, is not 
well prepared to effectively manage these unprecedented water 
stresses.
    The main reasons are lack of comprehensive knowledge and 
information on the interdependencies of natural process and 
water uses, narrow perspective of water user groups on local 
rather than basin-wide interests, lack of Federal and State 
agencies coordination and cooperation, insufficient Federal and 
State research investments on the modernization of management 
processes, and weakening of water resources research and 
education programs.
    I would like to briefly comment on each one of those areas.
    On knowledge and information, the NRC reports developed a 
comprehensive list of 43 areas needing further scientific 
inquiry. These areas pertain to the interdependence of water 
quantity and quality, the balance between human and ecological 
water uses, and the legal, institutional and social factors 
that contribute to sustainable water resources management.
    While there is a lot to learn, a lot is already known and 
can significantly benefit the water resources planning and 
management. However, making this knowledge and information 
meaningful for and accessible to those involved in decision-
making is a very serious challenge.
    Paradoxically, in spite of our information age, water 
resources policymakers, managers and stakeholder groups are 
becoming ever more removed from current scientific and 
technological advances. There is thus a compelling need to 
establish and invest in effective information and technology 
transfer mechanisms.
    On local versus system-wide scope, water stresses are often 
compounded by the efforts of individual stakeholders acting to 
safeguard their own local interests without regard of the long 
term risks of their actions. A local and short term scope by 
each stakeholder group, sharing the resource, cannot be 
sustainable and only serves to hasten the depletion of water 
reserves and the onset of disastrous impacts for all.
    This tragedy of the commons scenario is likely to occur 
when water uses and impacts are planned and managed 
individually without regard for their multiple temporal and 
spatial linkages. It is thus imperative that the proposed water 
commission take a holistic perspective in the development of a 
comprehensive national water strategy.
    On Federal and State agency coordination and cooperation, 
water resources management falls within the mandates of many 
Federal agencies. In reviewing the existing Federal 
coordination mechanisms, the NRC reports concluded that 
``coordination among agencies has occurred only sporadically 
over the last several decades, despite repeated calls for more 
coordination.''
    As a result, the national water resources agenda among the 
Federal agencies is fragmented, has a disciplinary rather than 
a broad and holistic scope, and is unable to provide the 
breadth and depth of information needed by the political 
process.
    Furthermore, although Federal and State agencies must work 
together to ensure harmonization of and compliance with Federal 
and State laws in the management of trans-boundary water 
resources, the existing coordination and cooperation 
mechanisms, if any, have been ineffective, and more often than 
not turn water conflicts and disputes into costly litigious 
battles.
    This ineffective Federal and State agency culture and modus 
operandum need to be improved so as not to undermine 
implementation and positive impact of the H.R. 135 commission 
strategy recommendations.
    On the lack of investments, a striking finding of the NRC 
reports was that over the last 30 years total funding in the 
areas of water supply augmentation and conservation, water 
quality management and protection, water resources planning and 
institutional issues, and water resources data collection 
declined severely. As a result, long term basic research and 
technology transfer in modern methods of water resources 
planning and management have been neglected, and the majority 
of our water resources are managed by reactive, disciplinary 
and inefficient methods and procedures.
    In a recent assessment of the ACF River Basin in the 
Southeast, GWRI demonstrated that the use of modern forecast 
decision methods can mitigate drought impacts and sustain 
adequate water services for all human users and ecosystem. 
Similar assessments and similar findings have been carried out 
and obtained for the Northern California river system as well 
as for other river basins.
    The main impediments in the use of modern management 
methods are, first, the inflexible bureaucracies that have 
evolved around the use of old management procedures and, two, 
inadequate training of agency personnel. Thus, a promising and 
largely unexplored strategy to address water scarcity is the 
modernization of the current management procedures through 
recent but proven scientific advances which are transferred to 
professional practice through education and training.
    The other casualty of declining funding has been the 
weakening of our water resources research and educational 
programs. At a time when universities increasingly depend on 
soft funding, faculty positions and student support migrate to 
other higher priority areas. In sharp contrast to the 1960s, 
1970s and 1980s, very few academic programs can now claim 
significant expertise in water resources.
    This is not to imply that academic programs are shrinking. 
On the contrary, they are expanding to cover much finer and 
very exciting frontiers of geophysical, environmental and life 
sciences. In doing so, however, universities have lost their 
commitment to interdisciplinary education and are becoming 
overspecialized.
    An important role that water resources programs can play is 
to provide a scientific and policy framework for 
interdisciplinary research, education and technology transfer. 
Such a framework is necessary to create broadly educated 
scientists, engineers and policymakers able to invent 
technological and institutional solutions for the Nation's 
water resources and environmental challenges.
    In this regard, the Water Resources Research Institutes 
provide a unique network to address the need for 
interdisciplinary research, education and technology transfer. 
However, the Institutes cannot fully realize their potential at 
the current low rate of Federal and State funding. I hope the 
commission envisioned by H.R. 135 will also address the need 
for sustainable and sufficient investments needed to reverse 
the continued weakening of our water resources programs.
    Thank you for the opportunity to testify before this 
Committee. I strongly support the establishment of a national 
water commission to study and develop recommendations for a 
comprehensive water strategy to address our Nation's future 
water needs. Thank you.
    Ms. Johnson. Thank you very much.
    Unfortunately, we will have to have a short recess so that 
we can vote, and we will return for the questions.
    The Subcommittee is in recess.
    [Recess.]
    Ms. Johnson. The Committee comes to order, and we are now 
ready for our questioning.
    I would like to first ask Mr. Mullican a question. It 
appears that Texas' long experience with water planning has 
evolved from a relatively narrow focus on water supply to a 
broader look at the comprehensive watershed planning. Have you 
found this approach to be more satisfactory in planning for 
future water?
    Mr. Mullican. Yes, ma'am. The point of looking at our 
planning process from a watershed basis is that until you get 
to a level of sophistication where you can truly integrate all 
of the demands and all of the supplies and the interaction of 
those demands and supplies on a watershed basis, you are going 
to continually overlook opportunities for optimizing the 
system.
    So, for example, in Texas, one of the things that we look 
at is rather than operating a series of reservoirs within a 
watershed on an individual basis, we will look towards 
operating them as a system. Simply as a function of operating 
those reservoirs as a system within a watershed can result in 
significant increases in the supplies available to meet water 
needs.
    Ms. Johnson. You discussed the lack of data, that Texas is 
investing heavily in data and science for water resources. Do 
you feel it should be a Texas responsibility or do you see a 
greater Federal role?
    Mr. Mullican. Well, Texas is more than willing to assume 
its fair share of the costs and effort that is required for 
water data collection and for the science that goes along with 
it, but the reality of it is when you look at the impact on a 
variety of Federal acts such as the Clean Water Act, Safe 
Drinking Water Act, Endangered Species Act, you cannot ignore 
the fact that those actions do have a consequence and do 
establish a Federal role at least in the aspect of making sure 
that we have adequate data to make the wise policy decisions 
that we must make.
    As was mentioned earlier in the panel, it is very 
frustrating to have this deterioration in Congressional funding 
for the USGS for their basic data collection program because 
what that does is it just simply transfers that cost share 
responsibility on to the State. We have for the last several 
sessions and will continue this session and into the next to 
work with you and Congress on getting back to a point where we 
are truly in a 50-50 working relationship on the data 
collection activities.
    But we are not going to stop there because the reality of 
it is there are many parts of the United States--and again this 
comes from my working with other States--where the data simply 
is not being collected. There are huge gaps in the data that 
are needed to make the financial decisions and the policy 
decisions with respect to our water resources.
    One does not want to go out and build a billion dollar 
water supply project that may have an environmental component 
to it, that may have a power, hydroelectric component to it. 
You do not want to make that kind of investment when you have 
inadequate data to ensure that the water supplies that project 
is supposed to be developing will actually occur.
    And so there must be a balance. That is what Texas has been 
working on for a time now, a balance between State and Federal 
roles in the basic data collection and science development, the 
development of new techniques and scientific models that we 
need to ensure our future water supplies, and I think that also 
goes over into climate change issues.
    We must look at adaptive management tools so that we can be 
responsive to the needs of the States to develop their water 
supplies. I think that when you look at the national 
perspective of things like that, it is really more appropriate 
for the Federal Government to be involved in the science of 
developing those new models rather than having 50 different 
States making an investment basically to develop the same tool.
    Ms. Johnson. Thank you very much.
    Mr. Grumbles, climate change is likely to impact a host of 
water resource areas, and these include increases in water 
pollution, more extreme weather events impact on water, reduced 
availability of water supplies in some areas because of drought 
or saltwater intrusion, and change in aquatic biology. EPA is 
obviously involved in these areas, but so are many other 
Federal agencies, not to mention State and local governments.
    In your opinion, how should the Federal, State and local 
governments, not just EPA, best plan and prepare for limiting 
the impact of climate change on these vital shared resources?
    Mr. Grumbles. Thank you, Madam Chair.
    A couple points I would make, one is making sure that we 
can all identify appropriate issues, so we can be proactive 
about the range of climate change impacts.
    EPA has developed and we have an internal work group. We 
have been spending an enormous amount of time and effort 
identifying potential issues, a range of different effects and 
considerations so that we can be proactive and have adaptive 
management, and we are working on developing a draft strategy 
that we would then finalize after public comment and input.
    The key is coordination with other agencies and levels of 
government and move forward in a responsible manner that 
recognizes that there is a need for adaptation and continued 
research on some emerging areas.
    There is also an important component of working on 
mitigation of greenhouse gases. So a good example of 
interagency collaboration is with the Department of Energy 
where we are recognizing the potential of aquifers, not 
aquifers but underground storage areas for deep injection of 
carbon dioxide to help mitigate greenhouse gas emissions. That 
is an emerging area.
    We are working with them and working with the Interior and 
Army Corps of Engineers, looking at a range of wetlands and 
water supply issues and impacts.
    At the same time, it is very important to be working with 
those who are closest to the ground, and that means the 
utilities, water and wastewater utilities, and State agencies 
on what their particular needs, whether it is a coastal concern 
about sea level rise or an inland concern about potential water 
quality or water quantity-related impacts from ethanol or other 
biofuels.
    There is no doubt this is an important component of climate 
change, looking at the water-related aspects, and we are 
certainly committed to doing that within EPA and coordinating 
with other agencies at the Federal, State and local levels 
including tribes.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mrs. Miller.
    Mrs. Miller. Thank you very much, Madam Chair.
    At the risk of sounding like a broken record about the 
Great Lakes, that is why I came here today, so I am going to 
say my peace about our Great Lakes here again.
    Notwithstanding some of the comments earlier from Mr. Lynch 
and your assurances that under no circumstances do we ever have 
to worry that any part of this legislation would ever be a 
problem for us, I have red flags all over the field on this 
piece of legislation. I just have to keep reiterating that.
    I say that, the huge consternation that we have, because in 
the Great Lakes Basin we have had bad experience in the past 
every time the Federal Government has gotten involved with 
anything regarding the Great Lakes. I will just give you two 
quick examples of things that have happened, that are manmade 
by the Federal Government, by the Army Corps of Engineers, that 
are literally diverting billions of gallons of Great Lakes 
water right now.
    In one instance, if you think of Michigan, right here in 
the St. Clair River, as Lake Huron comes into the St. Clair 
River, the Army Corps of Engineers in the early 1960s did 
extensive dredging there actually to open up the upper Great 
Lakes to shipping which was a great thing, but subsequent 
dredging and erosion has, we think--there is a huge theory out 
there--it has actually effected something like a bathtub 
effect, like the drain out of a bathtub. We are literally 
diverting billions of gallons over the Niagara into the big 
pond there because of that.
    Another example is at the mouth or the foot of Lake 
Michigan, the Chicago diversionary canal, again constructed by 
the Army Corps of Engineers years ago, and I appreciate the 
drinking water part of that, but billions of gallons of Great 
Lakes water is being flushed down the Mississippi River to 
float the barges in the Mississippi, again at a time when we 
have historic low lake levels.
    We are very, very concerned about this piece of 
legislation. I just want to tell you that I intend to make sure 
that every Member of Congress in the Great Lakes Basin from 
every State, which would be Michigan, New York, Ohio, Indiana, 
Illinois, Minnesota, Wisconsin and Pennsylvania, receive my own 
lobbying, I guess, to make sure that they understand that this 
piece of legislation could have negative ramifications for us 
in the Great Lakes Basin.
    I think, as you look at a national model, for instance, in 
the Great Lakes, our governors have a covenant, an annex 
actually, the governors in the Great Lakes Basin as well as the 
provinces of Canada because we share the long liquid border 
there, to ensure that there is never any diversion of the Great 
Lakes.
    Let me just say accolades to all of you for your fantastic 
water conservation and things that you are doing in your own 
States, in your own regions. God bless you. I think it is 
wonderful.
    I am very parochial about this, and I know you might think 
I am alarmist, but this is where I am going with this. It is 
such a big issue for all of us.
    If you just think of this, I don't know how much this water 
costs. Maybe it is a buck, right? If you think about how much 
it costs for a gallon of gasoline, let's say it is $3, maybe a 
little bit more. Let's say it is $3. I mean a gallon of bottled 
water is $6 to $8, and you can actually live without the gas, 
but you cannot live without fresh water.
    So it is an asset that we have in the Great Lakes Basin, 
and we do intend to make sure it is not diverted to other parts 
of the Nation.
    My question would be to each one of you. I have only one 
question. I would like you each to answer this. Would you still 
support this bill if there was language in the bill which 
clearly spelled out that under no set of circumstances could 
any national commission that would be comprised by this bill 
ever consider any diversion of Great Lakes water?
    If there was boilerplate language to iterate that in the 
bill, would you still support this bill that you have all 
testified on? That is my question for the panel.
    Mr. Grumbles. I will start, Congresswoman. I think it is 
important for any commission or any entity or agency to 
recognize existing law, Section 1109 of WRDA 1986, which makes 
it very clear that if there is a Federal agency involved in a 
project or even study of a diversion from the Great Lakes that 
doesn't have the support of the Great Lakes governors as 
spelled out in Federal law, then that is prohibited.
    I think the value of having certain savings clauses or 
provisions in the bill that identify what is the scope of the 
commission's considerations is an important one. I think there 
can be a danger, though. It runs the slippery slope of starting 
to take broad discussion areas off the table.
    But I certainly understand that, and I think other regions 
of the Country would understand that it should be a discussion 
about not perpetuating problems but coming up with solutions 
and then suggesting them to policymakers.
    I think the bill, as currently written, does make a pretty 
strong signal about deferring to States on water quantity, 
water allocation, water diversions. I see value in clarifying 
that or strengthening it, but I do think there can be a danger 
to starting to take specific issues or areas off the table for 
a commission to consider.
    Mrs. Miller. I will take that as a definite maybe. Thank 
you.
    Mr. Mullican.
    Mr. Mullican. Well, in 1968, the State of Texas passed a 
water plan that would have in part put an interbasin transfer 
that would have diverted water perhaps out of the Mississippi, 
perhaps from as far as your part of the world, and the voters 
of Texas voted it down. And so, I think I can say that we would 
not have a problem just on the face of it with excluding the 
Great Lakes from consideration as far as water supply to Texas 
is concerned.
    But I would even go further, though, to say that based on 
the Texas experience, that I think there has to be a certain 
amount of buy-in to anything that comes out of this process for 
there to be any chance of any consideration or implementation 
by those that are responsible. I mean the local and regional 
water providers.
    As such, it seems to me that the focus of this particular 
first step is a true assessment of what and where are the 
demands and when are they going to occur and where are the 
needs because until we get that fundamental understanding of 
our water supplies, then to me you are putting the cart before 
the horse when you start worrying what are the recommendations 
for how we are going to meet our future water supply needs. You 
are making an assumption that we know what those needs are.
    I will argue, having worked with a number of States across 
the United States, that that very basic understanding does not 
exist in most States in the United States. So, first and 
foremost, there has to be some sort of assessment to understand 
what those needs are and where they are going to occur. Then 
you can think about what the potential solutions might be, but 
I really want to emphasize that putting the solutions before 
the assessment is, as Mr. Grumbles said, a very slippery slope.
    Mrs. Miller. Thank you.
    Actually, I am out of time and, with the Chair's 
indulgence, perhaps just another 30 seconds for the other three 
to answer if you could. Thank you.
    Mr. Conrad. Thank you, Congresswoman.
    I respond somewhat to some of the caveats that Assistant 
Administrator Grumbles has there about the commission being 
essentially a study group that wouldn't be empowered to 
actually make decisions.
    I am going to say, first off, the National Wildlife 
Federation is one of the staunchest supporters of the integrity 
of the Great Lakes, and we strongly support both the law that 
was passed in 1986, the compact that exists.
    In 2005, I believe it was, our organization, which has a 
kind of national legislature of affiliates, adopted a very 
strong policy view that interbasin transfers should really be 
discouraged and not allowed except under the most narrow 
circumstances. It was almost a don't do it policy, and I think 
we believe that for all the major basins.
    Mrs. Miller. Thank you.
    Mr. Lynch?
    Mr. Lynch. Mrs. Miller, I must confess that I was born in 
Manistee on Lake Michigan, and my extended family still farms 
south of Grand Rapids.
    Mrs. Miller. I knew there was something I liked about you.
    Mr. Lynch. And so, all I can say is I experienced 
appropriations bills here, oh, for three decades from a 
gentleman by the name of Scoop Jackson who said there will be 
no transfers from the Columbia Basin to the Colorado, and 
everybody got the message.
    I hope that this commission would be able to consider your 
concerns that you have voiced today about things going on in 
the Great Lakes, but I would join Mr. Conrad. We are not 
interested in having you raided for anybody or solutions like 
that.
    The West is as paranoid about its sovereignty as you are 
about the Great Lakes, and we join you in that paranoia, and we 
will do everything we can to preserve the prerogative of the 
States in addressing these issues.
    Mrs. Miller. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hall. [Presiding.] You are welcome, Mrs. Miller.
    Mr. Georgakakos, would you like to briefly answer the same 
question?
    Mr. Georgakakos. Thank you, yes.
    Water resources is a common good, and it is never meant to 
pit one part of the Country against another. So I would not 
support a bill that actually does that.
    But it should be a process that is the result of the 
consensus, a regional consensus, and only then if it is 
discussed democratically and is agreed upon that perhaps it is 
a solution, then it should become a bill and then we should be 
asked to vote for it.
    Mrs. Miller. Thank you very much, Mr. Chairman.
    Mr. Hall. Thank you, Mrs. Miller.
    You can add me to the list of people you will be lobbying 
because New York State also has a long stretch of Lake Ontario 
and little teeny bit of Lake Erie and, of course, we are 
concerned about Great Lakes water as well.
    Mr. Georgakakos, you discuss a reduction in funding for 
research and a decline in academic programs. Is this a U.S. 
problem or is this a short fall in research funding plaguing 
science globally?
    Mr. Georgakakos. I mentioned it specifically about water 
resources programs. As I said, back in the 1960s and 1970s and 
1980s, there were good programs in many universities of ours, 
but if you look now I think very few universities can claim the 
expertise that I talked about in terms of adaptive forecast 
decision methods and management.
    So somehow it is the natural consequences of actually 
moving into more finer frontiers of science and funding those 
as opposed to making sure that we maintain the integrity of our 
academic programs.
    I would say that if we are going to create solutions and 
invent solutions looking to this interdisciplinary question, we 
need to have people educating in that regard. I think this is 
the kind of funding that we need to maintain the programs and 
have the people that are going to find the solutions.
    Technology is not going to do it by itself. It is the 
people that are going to put things together. I am worried that 
without this funding we are just putting ourselves in the 
situation that we cannot do that.
    Mr. Hall. Thank you.
    Mr. Grumbles, you mentioned in your testimony high 
efficiency toilets as a concrete or a ceramic way to make an 
immediate impact. I noticed on a recent trip to Israel that all 
of the toilets there had two buttons, the little button and the 
big button, and I think most people in the United States can 
figure out which was the one to hit.
    Is this something that you think the American public would 
accept and the Administration would look kindly on as a 
mandate, if I dare use that word?
    Mr. Grumbles. I don't think we would accept a mandate. The 
Administration feels that the most successful approach is to 
encourage the market to develop innovative, sustainable 
solutions.
    Our WaterSense is certifying. We have certified and given 
the WaterSense high efficiency label to over 80 different types 
of toilets now, and some of those are the dual flush toilets. 
We leave it to the consumer to choose.
    We see and want to encourage products like that that work 
well and save water and save money on the energy bills for 
utilities, to continue to use those. So the dual flush toilets 
are one of many exciting innovative technologies that are 
really taking hold and there is an increasing use of dual flush 
toilets.
    Mr. Hall. Excuse me for interrupting you because we have 
votes called and I only have a couple minutes, but I just 
wanted to ask you if the combination of public outreach and 
incentives are, in your opinion, working enough to make this 
change?
    Mr. Grumbles. Right now, the law is 1.6 gallons per flush 
or less for toilets. What we are focused on is trying to 
increase the efficiency of that to 1.28 through incentives and 
encouragements, and we see that the marketplace will drive more 
and more consumes voluntarily to use those dual flush and other 
truly high efficiency toilets.
    Mr. Hall. Thank you.
    I wanted to ask the question, and it bears on Mrs. Miller's 
question about certain regional concerns but also on the 
regional supply of renewable energy that could be used for 
desalinization or for water purification.
    Now an Israeli company, Solel, which is currently building 
a photovoltaic in the Mojave Desert to supply electricity for 
about 400,000 homes in partnership with PG&E. The nice thing 
about solar, among other renewables, is that it generates 
sometimes, it doesn't at other times, but when it does you can 
use it for storage of whatever you are trying to produce, be it 
power or water.
    So I am curious of the commission, what do you foresee?
    I would ask maybe Mr. Conrad first, do you see the 
commission as studying desalinization technology and do you 
think that, for instance, in the Southwest where there is such 
an abundant supply of sunshine and also proximity to water, be 
it from the Gulf or from the Pacific, that that is a viable way 
to try to bring a new supply of water on board?
    Mr. Conrad. I believe that is the kind of forward thinking 
that a commission of this sort needs to do. It needs to look at 
technologies and mixtures of technologies that are being tried 
in other places or being tried within the United States and not 
generally known and whether they are valuable and to bring that 
forward to the Congress and to the public.
    Mr. Hall. Thank you very much.
    Thank you all for your testimony.
    We have to leave for another vote. At this time, if Mr. 
Brown and Mr. Arcuri will agree, we will ask Members to submit 
the balance of questions to the witnesses and answers will be 
taken for the record rather than having you sit here and go and 
vote for who knows how long.
    Thank you again for your testimony, and the hearing is now 
adjourned.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T8865.004
    
    [GRAPHIC] [TIFF OMITTED] T8865.005
    
    [GRAPHIC] [TIFF OMITTED] T8865.006
    
    [GRAPHIC] [TIFF OMITTED] T8865.007
    
    [GRAPHIC] [TIFF OMITTED] T8865.008
    
    [GRAPHIC] [TIFF OMITTED] T8865.009
    
    [GRAPHIC] [TIFF OMITTED] T8865.010
    
    [GRAPHIC] [TIFF OMITTED] T8865.011
    
    [GRAPHIC] [TIFF OMITTED] T8865.012
    
    [GRAPHIC] [TIFF OMITTED] T8865.013
    
    [GRAPHIC] [TIFF OMITTED] T8865.014
    
    [GRAPHIC] [TIFF OMITTED] T8865.015
    
    [GRAPHIC] [TIFF OMITTED] T8865.016
    
    [GRAPHIC] [TIFF OMITTED] T8865.017
    
    [GRAPHIC] [TIFF OMITTED] T8865.018
    
    [GRAPHIC] [TIFF OMITTED] T8865.019
    
    [GRAPHIC] [TIFF OMITTED] T8865.020
    
    [GRAPHIC] [TIFF OMITTED] T8865.021
    
    [GRAPHIC] [TIFF OMITTED] T8865.022
    
    [GRAPHIC] [TIFF OMITTED] T8865.023
    
    [GRAPHIC] [TIFF OMITTED] T8865.024
    
    [GRAPHIC] [TIFF OMITTED] T8865.025
    
    [GRAPHIC] [TIFF OMITTED] T8865.026
    
    [GRAPHIC] [TIFF OMITTED] T8865.027
    
    [GRAPHIC] [TIFF OMITTED] T8865.028
    
    [GRAPHIC] [TIFF OMITTED] T8865.029
    
    [GRAPHIC] [TIFF OMITTED] T8865.030
    
    [GRAPHIC] [TIFF OMITTED] T8865.031
    
    [GRAPHIC] [TIFF OMITTED] T8865.032
    
    [GRAPHIC] [TIFF OMITTED] T8865.033
    
    [GRAPHIC] [TIFF OMITTED] T8865.034
    
    [GRAPHIC] [TIFF OMITTED] T8865.035
    
    [GRAPHIC] [TIFF OMITTED] T8865.036
    
    [GRAPHIC] [TIFF OMITTED] T8865.037
    
    [GRAPHIC] [TIFF OMITTED] T8865.038
    
    [GRAPHIC] [TIFF OMITTED] T8865.039
    
    [GRAPHIC] [TIFF OMITTED] T8865.040
    
    [GRAPHIC] [TIFF OMITTED] T8865.041
    
    [GRAPHIC] [TIFF OMITTED] T8865.042
    
    [GRAPHIC] [TIFF OMITTED] T8865.043
    
    [GRAPHIC] [TIFF OMITTED] T8865.044
    
    [GRAPHIC] [TIFF OMITTED] T8865.045
    
    [GRAPHIC] [TIFF OMITTED] T8865.046
    
    [GRAPHIC] [TIFF OMITTED] T8865.047
    
    [GRAPHIC] [TIFF OMITTED] T8865.048
    
    [GRAPHIC] [TIFF OMITTED] T8865.049
    
    [GRAPHIC] [TIFF OMITTED] T8865.050
    
    [GRAPHIC] [TIFF OMITTED] T8865.051
    
    [GRAPHIC] [TIFF OMITTED] T8865.052
    
    [GRAPHIC] [TIFF OMITTED] T8865.053
    
    [GRAPHIC] [TIFF OMITTED] T8865.054
    
    [GRAPHIC] [TIFF OMITTED] T8865.055
    
    [GRAPHIC] [TIFF OMITTED] T8865.056
    
    [GRAPHIC] [TIFF OMITTED] T8865.057
    
    [GRAPHIC] [TIFF OMITTED] T8865.058
    
    [GRAPHIC] [TIFF OMITTED] T8865.059
    
    [GRAPHIC] [TIFF OMITTED] T8865.060
    
    [GRAPHIC] [TIFF OMITTED] T8865.061
    
    [GRAPHIC] [TIFF OMITTED] T8865.062
    
    [GRAPHIC] [TIFF OMITTED] T8865.063
    
    [GRAPHIC] [TIFF OMITTED] T8865.064
    
                                    

</pre></body></html>
